                                Office of Inspector General
                               Corporation for National and
                                        Community Service




    AUDIT OF CORPORATION FOR NATIONAL
      AND COMMUNITY SERVICE GRANTS
    AWARDED TO THE PUERTO RICO STATE
   COMMISSION ON COMMUNITY SERVICE AND
       SOCIAL ACTION SUBGRANTEES
            OIG REPORT NUMBER 06-05




                        Prepared by:

               Conrad and Associates, L.L.P.
               2301 Dupont Drive, Suite 200
                 Irvine, California 92612




This report was issued to Corporation management on February 13, 2006.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than August 13, 2006 and complete its corrective
actions by February 13, 2007. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                             OFFICE OF INSPECTOR GENERAL


                         Corporation for National and Community Service
                                       Audit Report 06-05

 Audit of Corporation for National and Community Service Grants Awarded to the Puerto Rico
                  State Commission on Community Service and Social Action Subgrantees

OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Conrad and Associates, L.L.P. (Conrad) to perform an incurred-cost audit
of grants awarded to the Puerto Rico State Commission on Community Service and Social
Action Subgrantees.
The grantees claimed costs of $1,512,093 of which the auditors questioned $155,067 as
unallowable grant costs and $64,595 of education awards. Overall, the auditors questioned
approximately 10.3 percent of claimed grant costs. Costs questioned for allowability represents:
an alleged violation or provision of law, regulation, grant or other agreement governing the
expenditure of funds; a finding that, at the time of the audit, certain costs were not supported by
adequate documentation; or a finding that the expenditure of funds for the intended purpose was
unnecessary or unreasonable. The auditors also noted instances of noncompliance with
provisions of Federal laws, regulations and grant award provisions.
In accordance with our statutory responsibilities, we reviewed Conrad’s report and related audit
documentation, interviewed their representatives, and performed other procedures, as we deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on the Grantee’s Consolidated
Schedule of Award Costs, or conclusions on internal controls and on compliance with laws and
regulations. Conrad is responsible for the attached reports dated June 16, 2005, and the
conclusions expressed therein. However, our review disclosed no instances where Conrad did
not comply, in all material respects, with generally accepted government auditing standards.

The Office of Inspector General provided officials of the Puerto Rico State Commission on
Community Service and Social Action Subgrantees with drafts of this report for their review and
comment. The Puerto Rico State Commission on Community Service and Social Action
Subgrantees written responses are included as an Appendix A. The Corporation’s responses are
included in Appendix B.

This report is a matter of public record, and its distribution is not limited.




                        1201 New York Avenue, NW Suite 830, Washington, DC 20525
                           202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                            Senior Corps   AmeriCorps   Learn and Serve America
               Audit of Corporation for National and Community Service
                                  Grants Awarded to
   Puerto Rico State Commission on Community Service and Social Action Subgrantees


                                            TABLE OF CONTENTS

                                                                                                                       Page

       Executive Summary .......................................................................................……………..1

       Background ....................................................................................................……………..1

       Purpose and Scope of Audit...........................................................................……………..4

       AmeriCorps Grant Programs Audited ...........................................................…………..…5

       Costs Questioned ...........................................................................................……………..5

       Compliance ....................................................................................................……………..6

       Internal Controls ............................................................................................……………..7

       Report Release……………………………… ...............................................……………..7

INDEPENDENT AUDITOR'S REPORT .................................................................……………..8

FINANCIAL SCHEDULES
     Consolidated Schedule of AmeriCorps Award Costs....................................………….. 10

       Notes to Consolidated Schedule of Award Costs.….……………………….. ………….11

       Exhibit A - Schedule of Award Costs:
                   Centro de Intervencione e Integracion Paso a Paso ...................………..…..12

        Exhibit B - Schedule of Award Costs:
                    Centro de Servicios a la Juventud, Incorporated .........................…………...13

        Exhibit C - Schedule of Award Costs:
                    Centro de Ensenanza Para la Familia. .........................................…………...16

        Exhibit D - Schedule of Award Costs:
                   Iniciativa Communitaria de Investigacion, Incorporated. ...........…………...18
                Audit of Corporation for National and Community Service
                                   Grants Awarded to
    Puerto Rico State Commission on Community Service and Social Action Subgrantees



                                 TABLE OF CONTENTS, (CONTINUED)

                                                                                                                 Page
         Exhibit E - Schedule of Award Costs:
                     Peninsula de Cantera....................................................................…………...20

         Exhibit F - Schedule of Award Costs:
                     Univerisidad Interamericana........................................................…………...23


COMPLIANCE AND INTERNAL CONTROLS
    Independent Auditor's Report on Compliance and on Internal Controls
           Over Financial Reporting...................................................................…………...26

                  Compliance Findings .........................................................................…………...27

                  Internal Control Findings...................................................................…………...56


RESPONSES TO REPORT

         Subgrantees:
Centro de Intervencione e Integracion Paso a Paso ………… ..................................Appendix A1
Centro de Servicios a la Juventud, Inc.…………......................................................Appendix A2
A2Centro de Ensenanza Para la Familia …………...................................................Appendix A3
Iniciativa Communitaria de Investigacion, Inc. …………........................................Appendix A4
Peninsula de Cantera ………….................................................................................Appendix A5
Universidad Interamericana ………… ......................................................................Appendix A6

         Corporation for National and Community Service.......................................Appendix B
REPORT SUMMARY AND HIGHLIGHTS
The Corporation terminated the existence of the Commission in a letter dated June 7, 2005, due
to previous problems that were left unresolved. The effective date of the termination was stated
to be June 30, 2005. Therefore, our engagement was specific to costs claimed at the subgrantee
level. More specifically, we were engaged to review only those subgrantees that were currently
active. Following is background information on the active subgrantees on which we performed
full-scope audits.

Centro de Intervencione e Integracion Paso a Paso (Paso a Paso)
The grant audited during fieldwork comprised 14 AmeriCorps members. Members provide
mentoring and tutorial services to grade school children around the community and also assist
social workers with care of the children. Centro de Intervencione e Integracion Paso a Paso is a
non-profit organization and is located in Hatillo, Puerto Rico.

Centro de Servicios a la Juventud, Inc. (CSJ)
The two grants audited during fieldwork comprise 81 AmeriCorps members. Members provide
Educational and social reform efforts to 11 public housing sites, seven special needs sites and
two segregated homeless societies. The members also provide tutorials to grade school children
and teach the community to maintain clean neighborhoods by removing debris from their
neighborhoods and implementing recycling programs. Centro de Servicios a la Juventud is a
non-profit organization and is located in Arecibo, Puerto Rico.

Centro de Ensenanza Para la Familia (Familia)
The three grants audited during fieldwork comprise 94 AmeriCorps members. They perform the
following roles throughout the community: 1) academic tutorials, 2) extra curricular services
and 3) housing project services in order to mentor children. Mentoring includes daily workshops
for children ages 3 – 12 in the community’s public housing sites. The workshops are designed to
help children improve their decision-making skills, communication skills, and anger
management. Children also participate in arts and crafts and sports recreation. Weekly
workshops are provided focusing on drug and alcohol abuse and the prevention of tobacco use.
Centro de Ensenanza Para la Familia is a non-profit organization and is located in Humacao,
Puerto Rico.

Iniciativa Communitaria de Investigacion, Inc. (Iniciativa)
The grant audited during fieldwork comprised nine AmeriCorps members. Members
supplemented existing activities at the organization by providing assistance to the HIV clinic and
to the homeless shelter. The members also assisted the organization in specific fundraising
activities. Iniciativa Communitaria de Investigacion, Inc. is a non-profit organization and is
located in San Juan, Puerto Rico.

Peninsula de Cantera (Cantera)
The two grants audited during fieldwork comprise 42 AmeriCorps members. The roles of the
members included landscape improvements throughout the Cantera Peninsula and supporting
various school programs by providing tutorials to children and single mothers to help them
become more self-sufficient. Cantera Peninsula Corporation is a quasi-governmental entity of
the Puerto Rico government and is located in San Juan, Puerto Rico.



                                                2
Universidad Interamericana (Interamericana)
The two grants audited during fieldwork comprise 50 AmeriCorps members. The members are
students at the University Interamericana. They provide tutorials to grade school children,
middle school adolescents and adults that did not complete high school. Certain AmeriCorps
members provide general healthcare services such as assisting the elderly with household chores
and assisted living. Universidad Interamericana is a private university with campuses throughout
Puerto Rico. Its main campus is located in San Juan, Puerto Rico.

The active Puerto Rico subgrantees have received approximately $2.55 million in funding and
claimed $1.5 million from Corporation AmeriCorps funds. Authorized funding and subgrantee
claimed expenditures during the audit period by AmeriCorps grants are as follows:

                                                               Funding        Claimed within
                                                              Authorized       Audit Period
Centro de Intervencione e Integracion Paso a Paso
03AFHPR0010008 – Formula                                      $    86,743       $    38,091
       Total AmeriCorps Funds                                      86,743            38,091

Centro de Servicios a la Juventud, Inc.
00ASFPR0400101 – Formula                                          726,119           679,145
03AFHPR0010002 - Formula                                          111,279             8,031
       Total AmeriCorps Funds                                     837,398           687,176

Centro de Ensenanza Para la Familia
00ASFPR0401401 – Formula                                          204,729            78,443
02ASCPR0401001 – Competitive                                      125,364            15,076
03ACHPR0010001 - Competitive                                      281,598            49,340
       Total AmeriCorps Funds                                     611,691           142,859

Iniciativa Communitaria de Investigacion, Inc.
03ACHPR0010002 – Competitive                                      142,745            84,457
        Total AmeriCorps Funds                                    142,745            84,457

Peninsula de Cantera
00ASFPR0400901 – Formula                                          361,993           330,325
03AFHPR0010005 – Formula                                          100,746            67,474
       Total AmeriCorps Funds                                     462,739           397,799

Universidad Interamericana
00ASFPR0401601 – Formula                                          315,981           161,711
03AFHPR0010003 - Formula                                           94,036                 -
       Total AmeriCorps Funds                                     410,017           161,711
TOTALS – AmeriCorps Grants                                    $ 2,551,333       $ 1,512,093


                                                 3
                                 Purpose and Scope of Audit

Our audit covered the costs claimed under the Corporation Grants and for the grant periods
detailed on page 5.

The objectives of our audit were to determine whether:

       •   financial reports prepared by the subgrantees presented fairly the financial results of
           the awards;

       •   internal controls were adequate to safeguard Federal funds;

       •   the subgrantees had adequate procedures and controls to ensure compliance with
           Federal laws, applicable regulations, award conditions, and that member services
           were appropriate to the programs; and

       •   award costs reported to the Corporation were documented and allowable in
           accordance with the award terms and conditions.


We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
amounts claimed against the awards, as presented in the Consolidated Schedule of Award Costs
and the subgrantee-specific Schedules of Award Costs (Exhibits A through F), are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in Exhibits A through F. An audit also includes assessing the
accounting principles used and significant estimates made by the auditee, as well as evaluating
the overall financial schedule presentation. Our audit included reviews of audit reports prepared
by the independent public accountants for the subgrantees in accordance with the requirements
of OMB Circular A-133, Audits of States, Local Governments and Non-profit Organizations.
We believe our audit provides a reasonable basis for our opinion. We performed our audit
during the period May 9 through June 16, 2005.

The contents of this report were disclosed to and discussed with each subgrantee at exit
conferences held in Puerto Rico on June 20 and 21, 2005. In addition, we provided a draft of this
report to each subgrantee and to the Corporation for comment on November 4, 2005, and
received responses from the subgrantees in early December 2005 and the Corporation on
December 2, 2005. Their responses are included in their entirety as appendices A and B,
respectively.




                                                4
                                   AmeriCorps Grant Programs Audited

Our audit of the subgrantees covered financial transaction, compliance and internal controls
testing of the following AmeriCorps program awards funded by the Corporation:

Subgrantee                 Grant Number                        Grant Period            Audit Period

Paso a Paso              03AFHPR0010008                  07/01/04 to 06/30/07       07/01/04 to 03/31/05
CSJ                      00ASFPR0400101                  11/01/00 to 03/31/04       11/01/00 to 03/31/04
CSJ                      03AFHPR0010002                  05/05/04 to 05/04/07       03/01/05 to 03/31/05
Familia                  00ASFPR0401001                  11/01/02 to 10/31/04       04/01/03 to 10/31/04
Familia                  02ASCPR0401001                  11/01/02 to 10/31/04       04/01/03 to 10/31/04
Familia                  03ACHPR0010001                  10/01/03 to 03/31/05       01/01/05 to 03/31/05
Iniciativa               03ACHPR0010002                  10/01/03 to 03/31/05       03/03/04 to 02/28/05
Cantera                  00ASFPR0400901                  11/01/00 to 03/31/04       11/01/00 to 03/31/04
Cantera                  03AFHPR0010005                  05/05/04 to 05/04/07       05/05/04 to 03/31/05
Interamericana           00ASFPR0401601                  11/01/02 to 10/31/04       06/01/03 to 10/31/04
Interamericana           03AFHPR0010003                  05/05/04 to 05/04/07       See Footnote 1

Our audit of the costs claimed by the subgrantees under these awards disclosed the following:

                                                                                 Percentage of
                                                               Amount           Budget/Claimed

Award Budget                                                   $2,551,333                    -
Claimed Costs                                                   1,512,093         59.3 percent
Questioned Grant Costs                                            155,067         10.3 percent
Questioned Education Awards                                        64,595

                                                 Costs Questioned

The following summarizes the costs questioned on these awards:

AmeriCorps Grants
 Living Allowances                                                                       $ 66,025
 Costs Inadequately Documented to Determine Allowability                                    8,472
 Personnel Costs Without Proper Timekeeping                                                50,709
 Void Check Claimed                                                                         1,436
 Reconciliation Variances                                                                  24,359
 Overpayments by Commission to Subgrantee                                                   1,847
 Administrative Costs Claimed Above Provision Allowance                                     2,219
 Education Awards                                                                          64,595

         Total costs questioned                                                          $219,662


1   No costs had been claimed as of the end of fieldwork, June 16, 2005.


                                                           5
We used a judgmental sampling method to test the costs claimed. Based upon this sampling
plan, questioned costs in this report may not represent total costs that may have been questioned
had all expenditures been tested. In addition, we have made no attempt to project such costs to
total expenditures incurred, based on the relationship of costs tested to total costs. For a
complete discussion of these questioned costs, refer to the Independent Auditor’s Report.


                                          Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

   1. Five of the six subgrantees did not comply with matching requirements in claiming costs
      to grant match. Unsupported costs and costs based on budget estimates were claimed to
      grant match operating costs, as well as equipment costs for which the cost basis was non-
      compliant.

   2. Personnel costs claimed by three of the six subgrantees were unsupported due to
      inadequate timekeeping methodologies or the costs claimed were based on budget
      estimates.

   3. At four of the six subgrantees, living allowances and fringe benefits were paid to
      AmeriCorps members who participated in prohibited activities or whose member files did
      not include appropriate eligibility documentation at four of six subgrantees.

   4. Members’ time sheets lacked appropriate signatures or were missing entirely at two of
      the six subgrantees audited.

   5. Direct costs claimed and paid by the Corporation for the AmeriCorps program were
      questioned because they did not comply with certain cost principles at two of the six
      subgrantees audited.

   6. All of the subgrantees failed to submit various required AmeriCorps documents within
      the established time frames.

   7. AmeriCorps member files lacked proper documentation to support either enrollment or
      participation at all six of the subgrantees audited.

   8. Member hours within WBRS were inaccurately reported at three of the six subgrantees
      audited.

   9. Living allowances were not paid incrementally, as prescribed by the AmeriCorps,
      provisions, at four of the six subgrantees audited.

   10. The living allowances paid to full-time members were less than the minimum amounts
       established in the application guidelines at one of the six subgrantees audited.



                                               6
                                               Internal Controls

Our audit disclosed the following internal control weaknesses:

    11. Internal control weaknesses identified at four of the six subgrantees audited related to
        their accounting systems. In addition, two of the six subgrantees lacked written
        accounting policies.

    12. Roles were not properly segregated within the accounting function at two of the six
        subgrantees audited.



The noncompliance findings numbered 1 through 5, and the internal control findings numbered
11 and 12, are also considered to be material internal control weaknesses.2


                                                Report Release

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, the Puerto Rico State
Commission on Community Service and Social Action Subgrantees, and the U.S. Congress.




2 A material weakness is a reportable condition in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that errors or irregularities in amounts, which
would be material to the financial statements being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.


                                                         7
               Corporation for National and Community Service Awards
  Puerto Rico State Commission on Community Service and Social Action Subgrantees

                       Consolidated Schedule of AmeriCorps Award Costs

                                 November 1, 2000, to March 31, 2005




                                                                                 Questioned
                                        Approved        Claimed       Questioned Education
Grant Number           Subgrantee        Budget          Costs          Costs     Awards Reference

03AFHPR0010008         Paso a Paso      $    86,743     $    38,091   $       -      $     -

    Total Paso a Paso                        86,743          38,091           -            -      Exhibit A

00ASFPR0400101         CSJ                  726,119         679,145         28,200        1,720
03AFHPR0010002         CSJ                  111,279           8,031           -            -

    Total CSJ                               837,398         687,176         28,200        1,720 Exhibit B

00ASFPR0401001         Familia              204,729          78,443           -           -
02ASCPR0401001         Familia              125,364          15,076          4,591        -
03ACHPR0010001         Familia              281,598          49,340           -           -
    Total Familia                           611,691         142,859          4,591         -      Exhibit C

03ACHPR0010002         Iniciativa           142,745          84,457         16,867       12,845
    Total Iniciativa                        142,745          84,457         16,867       12,845 Exhibit D

00ASFPR0400901         Cantera              361,993         330,325         81,589       49,405
03AFHPR0010005         Cantera              100,746          67,474         10,650         -

    Total Cantera                           462,739         397,799         92,239       49,405 Exhibit E

00ASFPR0401601         Interamericana       315,981         161,711         12,039          625
03AFHPR0010003         Interamericana        94,036            -             1,131         -
    Total Interamericana                    410,017         161,711         13,170         625 Exhibit F

                       Totals           $2,551,333      $1,512,093        $155,067   $64,595




                                                   10
              Corporation for National and Community Service Awards
   Puerto Rico State Commission on Community Service and Social Action Subgrantees

                       Notes to Consolidated Schedule of Award Costs

                            November 1, 2000, to March 31, 2005




Reporting Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted, claimed,
and questioned for active AmeriCorps subgrantees within Puerto Rico awarded Corporation
funds for the period from November 1, 2000, to March 31, 2005.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and the subgrantees. The information presented in the
Schedule has been prepared from the reports submitted to the Commission by the subgrantees as
well as information submitted to the Corporation. The basis of accounting used in preparation of
these reports differs slightly from accounting principles generally accepted in the United States
of America as follows:

       Equipment

       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the Schedule of Award Costs include the cost of equipment
       purchased during the period rather than a provision for depreciation. The equipment
       acquired is owned by the subgrantees while used in the program for which it was
       purchased or in other future authorized programs. However, the Corporation has a
       reversionary interest in the equipment. Its disposition, as well as the ownership of any
       proceeds there from, is subject to Federal regulations.

       Inventory

       Minor materials and supplies are charged to expense during the period of purchase.




                                               11
                                                                                   Exhibit A
                                                                                  Page 1 of 1

        PUERTO RICO STATE COMMISSION ON COMMUNITY SERVICE AND
                       SOCIAL ACTION SUBGRANTEES
                             Schedule of Award Costs
                  Corporation for National and Community Service
                        Grant Number 03AFHPR0010008
                          July 1, 2004, to March 31, 2005

             Centro de Intervencione e Integracion Paso a Paso (Paso a Paso)




                                                                                 Reference

Approved Budget (Federal Funds)                                  $86,743           Note 1
Claimed Costs                                                    $38,091           Note 2
Total Questioned Match Costs                                     $ 2,549           Note 3

Notes

1. The amount shown above as Approved Budget represents the total funding to Paso a Paso
   according to budget schedules.

2. Claimed costs represent Paso a Paso’s reported expenditures for the period July 1, 2004,
   through March 31, 2005.

3. Costs claimed to match for the Program Director’s effort were $1,000 per month, based on an
   estimated budget amount. We recalculated actual costs, using salary information and the
   actual number of hours incurred, which resulted in a variance of $2,549 from the amount
   claimed. The program ended in August 2005, two and a half months after the completion of
   our fieldwork. Although these costs are questioned, the subgrantee is on pace to meet its
   match requirement of 33 percent, as its recalculated match percentage as of March 31, 2005
   is 41 percent. (Also see Compliance Finding No. 1.)




                                             12
                                                                                  Exhibit B
                                                                                 Page 1 of 3

        PUERTO RICO STATE COMMISSION ON COMMUNITY SERVICE AND
                       SOCIAL ACTION SUBGRANTEES
                             Schedule of Award Costs
                  Corporation for National and Community Service
              Grant Numbers 00ASFPR0400101 and 03AFHPR0010002
                       November 1, 2000, to March 31, 2005

                          Centro de Servicios a la Juventud (CSJ)




                                                                                 Reference
Approved Budget (Federal Funds)                                 $   837,398       Note 1

Claimed Costs                                                   $   687,176        Note 2

Questioned Costs
   Reconciliation Variance                        $   24,359                       Note 3
   Fuel Charges                                        1,994                       Note 4
   Overpaid by Commission                              1,847                       Note 5

Total Questioned Costs                                          $    28,200

Total Questioned Education Awards                               $     1,720        Note 6

Notes

1. The approved budget amount of $837,398 represents total funding to CSJ for Program Years
   (PY) 2000-01 through 2004-05, per the budget schedules.

2. The claimed costs of $687,176 represent the amount of reported expenditures by CSJ for the
   Program Years tested (PY 2000-01 through 2004-05).




                                             13
                                                                                    Exhibit B
                                                                                   Page 2 of 3


3. Reconciliation Variances

   We identified a variance between the costs claimed and the costs entered in the general
   ledger. The total cost claimed under the grant was $831,640 compared to $807,281 within
   the general ledger. Costs claimed to the grant and to the match were commingled within the
   general ledger. We were unable to determine whether the variance was isolated to costs
   claimed to the grant, costs claimed to grant match, or a combination of both categories
   because of the methodology in which CSJ accumulated costs within its accounting system.
   The table below demonstrates the costs claimed by CSJ.

                         Costs Claimed per Subgrantee Monthly Requests

      Program Year                Grant                      Match                 Total

         2000-01                $216,673                   $ 55,228              $271,901
         2001-02                 235,302                     46,904               282,206
         2002-03                 227,170                     50,363               277,533

          Total                 $679,145                   $152,495              $831,640


   The following table demonstrates the variance when comparing costs claimed by CSJ, to
   costs per the CSJ general ledger.

                                Monthly
      Program Year              Summary               Per General Ledger          Variance

         2000-01                $271,901                   $259,646               $12,255
         2001-02                 282,206                    277,575                 4,631
         2002-03                 277,533                    270,060                 7,473

         Total                  $831,640                   $807,281               $24,359


   CSJ was unable to provide audit evidence that the variance was related to grant match costs.
   As such, we have questioned the variance as if the costs had been claimed to the Corporation
   and have classified the costs as being unsupported. (Also see Compliance Finding No. 5.)




                                             14
                                                                                    Exhibit B
                                                                                   Page 3 of 3


4. Fuel Charges

   We identified two transactions claimed to the grant for fuel purchased by AmeriCorps
   members and administrative staff at a local gas station. The documentation revealed that the
   charges were not allocable to the grant and were not provided for in the original award
   budget. We have therefore questioned $1,994 associated with these transactions. (Also see
   Compliance Finding No. 5.)

5. Overpaid by Commission

   We identified a variance between the grant funds requested by CSJ and the funds received
   from the Commission for the grant as shown below. (Also see Compliance Finding No. 5.)

           Program Year              Request             Received         Over (Under) Paid

              2000-01               $216,673             $219,838               $3,165
              2001-02                235,302              233,999               (1,303)
              2002-03                227,170              227,155                  (15)

              Total                 $679,145             $680,992               $1,847

6. Questioned Education Award

   We reviewed 40 member files and found one member that received a partial education award,
   and whose reason for leaving the program early was due to his discontent with the program.
   The reason stated for leaving does not meet the established criteria of compelling
   circumstances. As such, we have questioned the amount of the award totaling $1,720. (Also
   see Compliance Finding No. 3.)




                                               15
                                                                                     Exhibit C
                                                                                    Page 1 of 2

        PUERTO RICO STATE COMMISSION ON COMMUNITY SERVICE AND
                         SOCIAL ACTION SUBGRANTEES
                              Schedule of Award Costs
                   Corporation for National and Community Service
        Grant Numbers 00ASFPR0401001, 02ASCPR0401001 and 03ACHPR0010001
                           April 1, 2003, to March 31, 2005

                         Centro de Ensenanza Para la Familia (Familia)

                                                                                   Reference

Approved Budget (Federal Funds)                                   $   611,691        Note 1
Claimed Costs                                                     $   142,859        Note 2
Questioned Costs
   Unsupported Staff Personnel Costs               $     3,155                       Note 3
   Voided Check                                          1,436                       Note 4

Total Questioned Costs                                            $      4,591

Questioned Match Costs
   Unsupported Staff Personnel Costs               $    19,829                       Note 3
   Voided Check                                            707                       Note 4

Total Match Costs Questioned                                      $    20,536

Notes

1. The approved budget amount of $611,691 represents total funding to Familia for PY 2003-04
   through 2004-05, per the budget schedules.

2. The claimed costs of $142,859 represent the amount of reported expenditures of Familia for
   the program years tested (PY 2003-04 through 2004-05).

3. Our review revealed that costs claimed for both administrative staff salaries were based on
   budget award figures. There were no timekeeping records to support the costs claimed to the
   Federal share or to the grant match. The following table represents the costs claimed that we
   have questioned. (Also see Compliance Finding Nos. 1 and 2.)

                     Grant              Federal Share       Grant Match
                 02ASCPR0401001            $3,155             $16,922
                 03ACHPR0010001               -                 2,907
                      Total                $3,155             $19,829


                                              16
                                                                                     Exhibit C
                                                                                    Page 2 of 2


4. We determined that a disbursement check claimed to the Federal share and to the grant match
   was voided but never credited to the grant, resulting in an overstatement of claimed costs as
   well as grant match. The following costs are unsupported and, as such, have been
   questioned. (Also see Compliance Finding Nos. 1 and 5.)

                      Grant              Federal Share       Grant Match
                  00ASFPR0401401            $1,436              $707




                                              17
                                                                                    Exhibit D
                                                                                   Page 1 of 2

        PUERTO RICO STATE COMMISSION ON COMMUNITY SERVICE AND
                       SOCIAL ACTION SUBGRANTEES
                             Schedule of Award Costs
                  Corporation for National and Community Service
                        Grant Number 03ACHPR0010002
                       March 3, 2004, to February 28, 2005

                 Iniciativa Communitaria de Investigacion, Inc. (Iniciativa)




                                                                                  Reference

Approved Budget (Federal Funds)                                  $ 142,745          Note 1
Claimed Costs                                                    $    84,457        Note 2
Questioned Costs
   Member Fund Raising Activities                  $   14,343                       Note 3
   Unsupported Staff Personnel Costs                    2,524                       Note 4

Total Questioned Costs                                           $    16,867

Questioned Education Awards
   Member Fund Raising Activities                  $    4,724                       Note 6
   Exiting without Compelling Circumstance              8,121                       Note 7

Total Questioned Education Awards                                $    12,845

Questioned Match Costs
   Member Fund Raising Activities                  $    2,531                       Note 3
   Unsupported Staff Personnel Costs                    3,300                       Note 4
   Input Keying Error                                     850                       Note 5

Total Questioned Match Costs                                     $      6,681

Notes

1. The approved budget amount of $142,745 represents total funding to Iniciativa for PY 2004-
   05 per the budget schedules.
2. The claimed costs of $84,457 represent the amount of reported expenditures of Iniciativa for
   PY 2004-05.



                                              18
                                                                                     Exhibit D
                                                                                    Page 2 of 2


3. We determined three of nine members at Iniciativa were solely engaged in fundraising
   activities for the organization. The activities are unallowable per the AmeriCorps provisions
   and, as such the members’ living allowances have been questioned as shown below. (Also
   see Compliance Finding No. 3.)

                   Federal Share        Grant Match
                      $14,343             $2,531

4. Our review revealed that costs claimed for an administrative staff employee were based on
   budget award figures. There were no timekeeping records to support the costs claimed to the
   share paid by the grant or to the grant match. As a result, we have questioned costs claimed
   as shown below. (Also see Compliance Finding Nos. 1 and 2.)

                   Federal Share       Grantee Match
                      $2,524              $3,300

5. We determined that an $850 transaction was erroneously claimed to grant match due to an
   input keying error. As a result, we have questioned these costs claimed to the grant match.
   (Also see Compliance Finding No. 1.)

6. The three members who engaged in fundraising activities, as discussed under Note No. 3,
   above also received Education Awards totaling $4,724. We have questioned the Education
   Awards because the members engaged in prohibited activities, as defined by the AmeriCorps
   provisions. (Also see Compliance Finding No. 3.)

7. Two of the five member files reviewed lacked documentation on why the members exited
   early. The two members received partial Education Awards. Due to the lack of supporting
   documentation, we have questioned Education Awards for the two members, a total of
   $8,121. (Also see Compliance Finding No. 3.)




                                              19
                                                                                  Exhibit E
                                                                                 Page 1 of 3

        PUERTO RICO STATE COMMISSION ON COMMUNITY SERVICE AND
                       SOCIAL ACTION SUBGRANTEES
                             Schedule of Award Costs
                  Corporation for National and Community Service
              Grant Numbers 00ASFPR0400901 and 03AFHPR0010005
                       November 1, 2000, to March 31, 2005

                               Peninsula de Cantera (Cantera)



                                                                                Reference

Approved Budget (Federal Funds)                                  $462,739         Note 1
Claimed Costs                                                    $397,799         Note 2
Questioned Costs
   Member Time sheet Exceptions                     $ 40,731                      Note 3
   Staff Personnel Costs not Certified                45,030                      Note 4
   Petty Cash Advances                                 6,478                      Note 5

Total Questioned Costs                                           $    92,239

Questioned Education Awards
   Member Time sheet Exceptions                     $ 45,436                      Note 3
   Exiting without Compelling Circumstance             3,969                      Note 7

Total Questioned Education Awards                                $    49,405

Questioned Match Costs
   Member Time sheet Exceptions                    $     7,187                    Note 3
   Staff Personnel Costs not Certified                  56,828                    Note 4
   Administrative Staff Based on Budget                134,560                    Note 6

Total Questioned Match Costs                                     $   198,575

Notes

1. The approved budget amount of $462,739 represents total funding to Cantera for Program
   Years 2000-01 through 2004-05 per the budget schedules.

2. The claimed costs of $397,799 represent the amount of reported expenditures of Cantera for
   PYs 2000-01 through 2004-05.


                                             20
                                                                                    Exhibit E
                                                                                   Page 2 of 3


3. From our review of 21 member files, we noted 12 member time sheets that were either
   missing the supervisor’s signature, the member signature or both signatures. Our expanded
   review revealed that no members had signed their time sheets for the months of October
   2002 and December 2003. Costs for these members were paid by the Corporation as well as
   claimed to the grant match. In addition, these members received Education Awards. We
   quantified these costs and have questioned them based on the exceptions we noted on
   member time sheets as shown below. (Also see Compliance Finding No. 4.)

                   Federal Share        Grant Match         Education
                                                             Award
                      $40,731              $7,187            $45,436

4. Two full-time Cantera staff members worked solely on the AmeriCorps project. The
   methodology of timekeeping, however, did not require it to be certified, as required by OMB
   Circular A-87. As a result, we have questioned the costs and match claimed to the grants for
   these two individuals as shown below. (Also see Compliance Finding Nos. 1 and 2.)

                     Grant             Federal Share       Grant Match
                 00ASFPR0400901           $36,000            $56,828
                 03AFHPR0010005             9,030               -
                   TOTAL                  $45,030            $56,828

5. Petty cash advances were provided to the AmeriCorps project coordinator to purchase
   miscellaneous items for members while working at construction sites. The purchases
   included ice, beverages, snacks and lunches. The purchases also included various meals for
   AmeriCorps staff. These purchases were not provided for in the original budget and as such,
   we have questioned the costs associated with these items as shown below. (Also see
   Compliance Finding No. 5.)

                     Grant             Federal Share
                 00ASFPR0400901           $4,858
                 03AFHPR0010005            1,620
                   TOTAL                  $6,478




                                              21
                                                                                        Exhibit E
                                                                                       Page 3 of 3


6. Our review disclosed that Cantera’s administrative staff personnel were claimed to the grant
   match based on amounts provided for in the award budget. The administrative personnel
   committed part of their effort toward the AmeriCorps project, but the timekeeping
   methodology did not allow us to determine the exact level of effort. Personnel at Cantera
   punched in and out using timecards and time clocks. The hard copy timecards were
   maintained. This methodology of timekeeping, however, did not allow reporting of effort by
   project because the timecard only indicated when the employee arrived and left the office. As
   a result, we are questioning the entire portion of costs claimed to match for these individuals.
   (Also see Compliance Finding No. 1.)

                00ASFPR0400901        03AFHPR0010005                Total
                    $93,397               $41,163                  $134,560

7. One of the 21 member files reviewed lacked documentation demonstrating why the member
   exited early. The member received a partial Education Award of $3,969. Due to the lack of
   supporting documentation, we have questioned the Education Award. (Also see Compliance
   Finding No. 3.)




                                                22
                                                                               Exhibit F
                                                                              Page 1 of 3

      PUERTO RICO STATE COMMISSION ON COMMUNITY SERVICE AND
                     SOCIAL ACTION SUBGRANTEES
                           Schedule of Award Costs
                Corporation for National and Community Service
            Grant Numbers 00ASFPR0401601 and 03AFHPR0010003
                       June 1, 2003, to October 31, 2004

                         Universidad Interamericana (Interamericana)




                                                                             Reference

Approved Budget (Federal Funds)                                 $ 410,017     Note 1

Claimed Costs                                                   $ 161,711     Note 2

Questioned Costs
   Member Time sheet Exceptions                    $    8,299                 Note 3
   Lacking Background Check                             2,387                 Note 4
   Administrative Costs Beyond Ceiling                  2,219                 Note 5
   No Hours Served                                        265                 Note 6

Total Questioned Costs                                          $   13,170

Total Questioned Education Awards
   Member Time sheet Exceptions                    $     145                  Note 3
   Lacking Background Check                              480                  Note 4

                                                                $      625

Questioned Match Costs
   Member Time sheet Exceptions                    $    1,461                 Note 3
   Lacking Background Check                               421                 Note 4
   No Hours Served                                         46                 Note 6
   Labor & Fringe Benefits Budget Estimates            59,231                 Note 7
   Administrative Fee Based on Budget                  11,489                 Note 8
   Equipment at Acquisition                             7,075                 Note 9
   Unsupported Supplies and Telephone Costs             1,308                 Note 10

Total Questioned Match Costs                                    $   81,031




                                              23
                                                                                   Exhibit F
                                                                                  Page 2 of 3


Notes

1. The approved budget amount of $410,017 represents total funding to Interamericana for
   Program Years 2003-04 through 2004-05 per the budget schedules.

2. The claimed costs of $161,711 represent the amount of reported expenditures of
   Interamericana for the Program Years tested (PY 2003-04 through PY 2004-05) for Grant
   No. 00ASFPR0401601. As of the completion of fieldwork, the subgrantee had not claimed
   expenditures toward Grant No. 03AFHPR0010003.

3. Our review disclosed two instances of members who had not signed their time sheets and 13
   instances of members who had not completed time sheets. Accordingly, we could not
   determine whether the living allowances paid to these members were for actual service hours
   completed and have therefore questioned the costs claimed. As stated in Note No. 2 above,
   the subgrantee had not claimed costs toward Grant No. 03AFHPR0010003 during fieldwork.
   We reviewed, however, supporting schedules for reimbursement claims which were to be
   submitted to the Commission in the near future. These schedules, although not yet claimed,
   were the basis of our questioned costs specific to the Grant No. 03AFHPR0010003. (Also
   see Compliance Finding No. 4.)

                                                                               Education
                     Grant             Federal Share      Grant Match           Award
                 00AFPR0401601             $7,168            $1,260              $145
                 03AFHPR0010003             1,131               201                -
                      Total                $8,299            $1,461              $145

4. From our sample of 25 members, we found that one member’s file did not include a
   background check. The member’s service included contact with children. As a result, we
   have questioned the living allowances claimed to the Corporation, to grant match and costs
   associated with the member’s Education Award. (Also see Compliance Finding No. 7.)

                Grant           Federal Share      Grant Match         Education Award
           00AFPR0401601           $2,387             $421                  $480

5. The subgrantee claimed administrative costs to the grant match using its approved indirect
   cost rate of 36 percent and also claimed administrative costs to the Corporation. The
   AmeriCorps provisions do not allow this. Once a subgrantee claims in excess of 10 percent
   to the grant match, it is precluded from claiming administrative costs to the Corporation.
   Accordingly, we have questioned the costs claimed to the Corporation totaling $2,219. (Also
   see Compliance Finding No. 5.)




                                             24
                                                                                       Exhibit F
                                                                                      Page 3 of 3


6. We determined that one member had been provided a monthly living allowance without
   serving any hours. Accordingly, we have questioned the costs associated with the living
   allowance. The costs reported for Grant No. 00AFPR0401601 were $265 and to grant match
   $46. (Also see Compliance Finding No. 3.)

7. We determined that University administrative staff personnel costs that were claimed to grant
   match, separate from the AmeriCorps project office, were based on budget estimates. Their
   timekeeping methodology, while meeting the requirements of OMB Circular A-21, did not
   allow us to determine the level of effort expended specific to the AmeriCorps grants.
   Therefore, we questioned the entire amount claimed for labor and fringe benefits claimed to
   grant match totaling $59,231. (Also see Compliance Finding No. 1.)

8. We determined that Interamericana’s calculation of administrative costs claimed to grant
   match was based on the budgeted figures described above under note No.7. We recalculated
   administrative costs by applying the 36 percent indirect rate applied to verifiable costs. This
   calculation resulted in a variance of $11,489 that has been questioned. (Also see Compliance
   Finding No. 1.)

9. We determined that costs claimed to grant match for the use of donated equipment were
   based on acquisition cost rather than fair market value. There were no records available to
   determine the current fair market value. As such, we questioned the entire equipment costs
   claimed to grant match, totaling $7,075. (Also see Compliance Finding No. 1.)

10. Costs claimed to grant match included budgeted costs for supplies and the use of telephones.
    These costs were not based or actual expenses and therefore were not supported. As such,
    we questioned the costs claimed to grant match of $1,308. (Also see Compliance Finding
    No. 1.)




                                               25
Compliance Findings

The results of our tests of compliance disclosed the following instances of noncompliance:

Finding No. 1: Questioned Program Grant Match Operating Costs

Subgrantees did not comply with matching requirements in claiming costs to grant match.
Unsupported costs and costs based on budget estimates were claimed to grant match operating
costs as well as equipment costs whose cost basis was noncompliant, as shown below. Problems
encountered with match costs claimed were due to a lack of clear understanding of the
requirements, and a lack of guidance from the Commission.

                                  Budget         Equipment Based
 Subgrantee      Unsupported     Estimates              on               Total        Note
                                                 Acquisition Price

Paso a Paso       $        -     $    2,549           $     -        $    2,549        (A)

Familia                 707          19,829                 -            20,536        (B)

Iniciativa              850           3,300                 -             4,150        (C)

Cantera               56,828      134,560                   -         191,388          (D)

Interamericana         1,308         70,720             7,075            79,103        (E)

 Totals           $59,693        $230,958             $7,075         $297,726

In addition, we found that CSJ had only provided 23 percent of its own costs toward the
operating match as opposed to its required 33 percent.

(A) Claimed costs included a monthly estimate of $1,000 for the Paso a Paso Director. We
    recalculated the actual level of effort, using the Director’s time sheets and salary
    information, to determine the variance in costs claimed as compared to the level of effort.
    The costs claimed to grant match through March 2005 had exceeded the actual level of
    effort by $2,549. As such, we have questioned the variance. (See also Exhibit A, Note 3.)

(B) We noted that personnel costs claimed for two Familia staff were based on the budgeted
    amounts rather than actual level of effort. As a result, we have questioned costs claimed to
    the two grants as shown below. (See also Exhibit C, Note 3.)

                      Grant               Grant Match
                  02ASCPR0401001            $16,922
                  03ACHPR0010001              2,907
                       Total                $19,829




                                               27
     We also noted a voided check that had been claimed to the Federal share and to the grant
     match. The portion claimed to grant match totaled $707. As such, we have questioned
     these costs claimed to grant match as unsupported. (See also Exhibit C, Note 4.)

(C) We determined an $850 transaction had been claimed for equipment that was not
    purchased. The claim was made due to an input keying error. We also noted that
    personnel costs claimed as operating costs to the grant match were based on the established
    percentage from the award budget and not on time sheets records documenting the actual
    effort expended. The amount claimed for personnel costs to the grant match was $3,300.
    (See also Exhibit D, Notes 4 and 5.)

(D) Full-Time AmeriCorps Staff

     Personnel costs were claimed for an allocated portion of the full-time Cantera AmeriCorps
     staff employees. Time sheets were prepared by the two staff employees indicating that
     their level of effort was solely related to AmeriCorps. However, Cantera lacked
     certifications documenting that the employees’ level of effort was solely specific to the
     AmeriCorps grants. As a result, we are questioning the costs claimed to the grant match
     totaling $56,828. (See also Exhibit E, Note 4.)

     Cantera Administrative Staff

     Cantera claimed personnel costs for administrative personnel whose efforts spanned
     various funding sources and were based on budget estimates rather than actual effort
     expended. As a result, we are questioning the costs claimed to the grant match as shown
     below, because we could not verify the costs from Cantera’s records. (See also Exhibit E,
     Note 6.)

                 00ASFPR0400901        03AFHPR0010005            Total
                     $93,397               $41,163              $134,560

(E) Unsupported Costs

     Documentation supporting costs for supplies and telephones totaling $1,308 were not
     available during fieldwork. As a result, we have questioned the costs claimed as
     unsupported. (See also Exhibit F, Note 10.)

     Budget Estimates

     Personnel costs were claimed for University employees who administratively assisted the
     AmeriCorps project. The costs claimed were not verifiable because they were based on
     grant award budget estimates and also because the University time sheets did not segregate
     labor hours by project. As a result, we have questioned the entire amount of $59,231
     claimed to grant match. (See also Exhibit F, Note 7.)




                                              28
     Administrative costs were also claimed by applying the approved indirect cost rate to
     budget estimates.

              Budget Estimates                                   $123,282
              Indirect Cost Rate                                 36 percent
              Total Administrative Costs                         $ 44,382
              95 percent Allocation to Match                     $ 42,162

     We applied the indirect cost rate to the actual costs to determine the amount that should
     have been claimed to Administrative Costs match as follows:

              Actual Verified Labor                               $85,204
              Indirect Cost Rate                                 36 percent
              Recalculated Costs                                  $30,673

     We questioned the variance of $11,489 ($42,162 less $30,673). (See also Exhibit F, Note
     8.) Total costs questioned for the use of budget estimates are $70,720 ($59,231 +
     $11,489.)

     Equipment Costs

     Equipment costs were claimed at the acquisition cost of donated equipment rather than the
     current fair market value. There were no records available during fieldwork that allowed
     us to determine the fair market value of the equipment. As such, we have questioned the
     entire amount of $7,075 claimed to grant match. (See also Exhibit F, Note 9.)

(A-C) With respect to the costs questioned above at Paso a Paso, Familia, and Iniciativa, the
Code of Federal Regulations, Part 2543, Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations, at 45 C.F.R. § 2543.23 requires:

              (a) All contributions, including cash and third party in-kind, shall be
              accepted as part of the recipient's cost sharing or matching when such
              contributions meet all of the following criteria.

              (1) Are verifiable from the recipient's records.

(D)    In regards to timekeeping at Cantera, OMB Circular A-87, Cost Principles for State,
Local and Indian Tribal Governments, Attachment B. Section 8., Support of Salaries and Wages,
subsection h (3), states:

              Where employees are expected to work solely on a single Federal award
              or cost objective, charges for their salaries and wages will be supported
              by periodic certifications that the employees worked solely on that
              program for the period covered by the certification. These certifications
              will be prepared at least semi-annually and will be signed by the



                                               29
               employee or supervisory official having first hand knowledge of the work
               performed by the employee.

Moreover, AmeriCorps General Provision 22.c.i. Financial Management Provisions,
Time Attendance Records, Staff, (2003) require that “salaries and wages charged directly
to this Grant or charged to matching funds must be supported by signed time and
attendance records for each individual employee.”

       In regards to match costs for these entities, 45 C.F.R. § 2543.23 requires:

               (a) All contributions, including cash and third party in-kind, shall be
               accepted as part of the recipient's cost sharing or matching when such
               contributions meet all of the following criteria.

               (1) Are verifiable from the recipient's records.

       Based on the timekeeping system in place, the subgrantee did not meet the requirements
       of OMB Circular A-87 and therefore the costs claimed to match were not verifiable.

       The other costs claimed to grant match for Cantera administrative personnel were not
       verifiable because the basis of these costs was budget estimates.

(E)    With respect to unsupported costs for supplies and telephones at Interamericana, 45
C.F.R. § 2543.23 requires:

               (a) All contributions, including cash and third party in-kind, shall be
               accepted as part of the recipient's cost sharing or matching when such
               contributions meet all of the following criteria.

               (1) Are verifiable from the recipient's records.

       In addition, subsection 2543.23(f) requires that:

               Donated supplies may include such items as expendable equipment, office
               supplies, laboratory supplies or workshop and classroom supplies. Value
               assessed to donated supplies included in the cost sharing or matching share
               shall be reasonable and shall not exceed the fair market value of the
               property at the time of the donation.

The effect of this condition on these subgrantees is as follows:

(A)    Paso a Paso’s match percentage has been reduced from 45 percent to 41 percent. Paso a
       Paso’s grant has been extended through August 2005. Further questioned match costs
       may preclude Paso a Paso from meeting its 33 percent match requirement.




                                                30
(B)      Including the questioned match costs of $20,536, Familia had claimed adequate operating
         grant match to meet its 33 percent requirement.

(C)      Iniciativa is further from meeting its match percentage requirement of 33 percent.
         Questioned costs have reduced its match percentage from 15 percent to 4 percent.

(D)      Cantera has not met its match percentage requirement of 33 percent. The revised match
         percentage after questioned costs is 32.33 percent.

(E)      Interamericana has not met its match percentage requirement of 33 percent. The revised
         match percentage after questioned costs is 25 percent.

This finding is also considered to be an internal control weakness.

Recommendation

We recommend that:

      1. All subgrantees review the applicable guidance and comply with the grant match
         requirements from OMB Circulars and the Code of Federal Regulations;

      2. Cantera de Peninsula, Universidad Interamericana and Iniciativa Communitaria de
         Investigacion, Inc. determine if there are other costs which were not claimed and that can
         be included as part of grant match costs; and

      3. The Corporation determine the allowability of costs identified and recover costs that are
         not allowable or allocable to the grant, including excess Federal share that may result
         from match shortfalls.

      4. The Corporation provide training to the subgrantees on the allowability of costs and the
         documentation required to support claimed costs.

Subgrantees’ Response

Centro de Intervencione e Integracion Paso a Paso

(A) The subgrantee agreed with the finding and has corrected its methodology in claiming
    match costs.

Centro de Ensenanza Para la Familia (Familia)

(B) The subgrantee disagreed with the finding as it pertains to staff administrative salaries on
    the basis that the Program Director’s time sheets revealed that there were surplus hours
    available to support the hours claimed to the grant. It calculated the excess hours per the
    response were total hours less those specific to a Department of Justice and United Way



                                                 31
     grants. It reasoned the additional hours (surplus), by default, reflected hours worked on the
     AmeriCorps grants.

     The subgrantee agreed with the finding that the void check had been claimed to grant
     match in error.

Iniciativa Communitaria de Investigacion, Inc.

(C) The subgrantee agreed with the $850 transaction that was erroneously claimed. However,
    the subgrantee disagreed with the finding questioning staff personnel costs claimed to
    match based on the budget. The subgrantee stated that, since there were general time
    sheets completed by staff and that staff supervised three AmeriCorps members, the costs
    claimed to match should be considered allowable.

Peninsula de Cantera

(D) The subgrantee did not respond to the finding.

Universidad Interamericana

(E) The subgrantee disagreed with the finding on the basis that it is the University’s regular
    practice to claim match costs to federally funded programs by using budget estimates. It
    also indicated it had supporting documentation to support costs claimed to grant match
    based on actual levels of effort.

Auditor’s Comment

(A) We agree with the subgrantee’s response.

(B) The method of backing into hours claimed to grants does not allow us to properly verify
    that the time claimed to the AmeriCorps grants was accurate. The assumptions would be
    that hours used from the Department of Justice and United Way grants were accurate and
    that the remaining hours (surplus) pertained only to AmeriCorps. The time sheets did not
    provide a breakdown between funding sources as levels of effort, which do not allow us to
    rely on the assumptions stated above. As such, the finding remains as stated.

(C) The staff whose costs were questioned worked on the AmeriCorps grant as well as other
    non-AmeriCorps duties. Preparation of a general time sheet indicating the total hours the
    person worked on a given day does not properly segregate effort specific to AmeriCorps
    versus non-AmeriCorps activity. Claiming costs to the grant and to the grant match based
    on budget estimates does not provide audit evidence of effort actually performed nor does
    it comply with the OMB timekeeping requirements. As such, the finding remains as stated.

(D) The finding remains as stated.




                                                 32
(E) Additional supporting documentation providing evidence to support the costs claimed to
    match was not provided with the response and should be forwarded to the Corporation.
    The finding was based on documentation available to us during fieldwork. As such, the
    finding remains as stated.

Finding No. 2: Questioned Non-Member Support Personnel Costs

We noted instances where personnel costs claimed were unsupported due to poor timekeeping
methods or for costs claimed based on budget estimates. The subgrantees reported they were
unaware of the specific timekeeping requirements required to adequately document charges for
personnel costs. The Commission, which was required to provide accurate and effective
monitoring, reported it was also unaware of the requirements.

                 Subgrantee          Grant               Amount        Note
                Familia         02ASCPR0401001           $ 3,155       (A)
                Iniciativa      03ACHPR0010002             2,524       (A)
                Cantera         00ASFPR0400901            36,000       (B)
                Cantera         03AFHPR0010005             9,030       (B)
                    Total                                $50,709

(A)    Costs claimed for employees of Familia and Iniciativa were based on budget award
       figures. There were no timekeeping records maintained. (Also See Exhibit C, Note 3
       and Exhibit D, Note 4.)

(B)    Cantera’s timekeeping data was captured through the use of punch time clocks. The
       hours claimed to the grants, however, were not certified by the employees’ supervisors.
       (Also See Exhibit E, Note 4.)

(A-B) OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B,
      Section 8.m. Compensation for Personal Services, Support of salaries and wages, states:

       (1) Charges to awards for salaries and wages, whether treated as direct costs or indirect
       costs, will be based on documented payrolls approved by a responsible official(s) of the
       organization. The distribution of salaries and wages to awards must be supported by
       personnel activity reports, as prescribed in subparagraph (2), except when a substitute
       system has been approved in writing by the cognizant agency.

       (2) Reports reflecting the distribution of activity of each employee must be maintained
       for all staff members (professionals and nonprofessionals) whose compensation is
       charged, in whole or in part, directly to awards. In addition, in order to support the
       allocation of indirect costs, such reports must also be maintained for other employees
       whose work involves two or more functions or activities if a distribution of their
       compensation between such functions or activities is needed in the determination of the
       organization's indirect cost rate(s) (e.g., an employee engaged part-time in indirect cost
       activities and part-time in a direct function). Reports maintained by non-profit


                                              33
       organizations to satisfy these requirements must meet the following standards:

       (a) The reports must reflect an after-the-fact determination of the actual activity of
       each employee. Budget estimates (i.e., estimates determined before the services
       are performed) do not qualify as support for charges to awards.

       OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments
       Attachment B. Section 11, Compensation for Personnel Services, subsection h(5) states:

       Personnel activity reports or equivalent documentation must meet the following
       standards:

       (a) They must reflect an after-the-fact distribution of the actual activity of each employee,

       (b) They must account for the total activity for which each employee is compensated,

       (c) They must be prepared at least monthly and must coincide with one or more pay
       periods,

       (d) They must be signed by the employee, and

       (e) Budget estimates or other distribution percentages determined before the services are
       performed do not qualify as support for charges to Federal awards but may be used for
       interim accounting purposes, provided that:

               (i) The governmental unit's system for establishing the estimates produces
               reasonable approximations of the activity actually performed;

               (ii) At least quarterly, comparisons of actual costs to budgeted distributions based
               on the monthly activity reports are made. Costs charged to Federal awards to
               reflect adjustments made as a result of the activity actually performed may be
               recorded annually if the quarterly comparisons show the differences between
               budgeted and actual costs are less than ten percent; and

               (iii) The budget estimates or other distribution percentages are revised at least
               quarterly, if necessary, to reflect changed circumstances.

Moreover, AmeriCorps General Provision 22.c.i. Financial Management Provisions, Time
Attendance Records, Staff, (2003) require that “salaries and wages charged directly to this Grant
or charged to matching funds must be supported by signed time and attendance records for each
individual employee.”

Based on the timekeeping systems in place, the subgrantees did not meet the requirements of
OMB Circulars A-87 and A-122, and the AmeriCorps Provisions.

The effect of this condition is that unallowable and non-allocable costs may have been charged



                                                34
to the grants.

This finding is also considered to be an internal control weakness.

Recommendation

We recommend that:

    1. Familia and Iniciativa implement timekeeping procedures that meet the standards of the
       AmeriCorps Provisions, OMB Circulars A-122 or A-87, as applicable;

    2. Cantera retroactively certify the pay periods in question and implement procedures to
       ensure the certifications occur in future periods; and

    3. The Corporation determine the allowability of the costs questioned and recover costs that
       are not allowable or allocable to the grants.

    4. The Corporation provide training to the subgrantees on the allowability of costs and the
       documentation required to support claimed costs.


Subgrantees’ Response

Iniciativa Communitaria de Investigacion, Inc.

(A) The subgrantee disagreed with the finding stating that, since there were general time sheets
    completed by staff and that staff supervised three AmeriCorps members, the costs claimed
    should be considered allowable.

Centro de Ensenanza Para la Familia (Familia)

(A) The subgrantee disagreed with the finding by indicating that the Program Coordinator had
    surplus hours available because she had worked overtime and that this overtime should be
    considered as effort spent on AmeriCorps.

Peninsula de Cantera

(B) The subgrantee has retroactively certified payroll registers for the full-time AmeriCorps
    staff for August 2004 through January 2005 and has submitted this information to the
    Corporation. In addition, effective June 2005, the subgrantee has implemented procedures
    requiring part-time AmeriCorps staff to complete time sheets that indicate hours worked
    specific to AmeriCorps.




                                                 35
     Auditor’s Comment

     (A) The Iniciativa staff whose costs were questioned worked on the AmeriCorps grant as well
         as other non-related AmeriCorps duties. Preparation of a time sheet indicating the total
         hours the person worked on a given day does not properly segregate effort specific to
         AmeriCorps versus non-AmeriCorps activity. Claiming costs to the grant and to the grant
         match based on budget estimates does not provide audit evidence of effort actually
         performed, nor does it comply with the OMB timekeeping requirements. As such, the
         finding remains as stated.

     (A) Familia’s hours claimed to AmeriCorps were not verifiable based on the assumption that
         surplus hours were spent on the grant. As such, the finding remains as stated.

     (B) The Corporation should review Peninsula de Cantera’s certifications to determine their
         adequacy as it relates to this finding. We agree that the implementation of timekeeping
         methodologies for part-time AmeriCorps staff is appropriate for future claims.

     Finding No. 3: – Unallowable Living Allowance and Education Awards

     We noted several instances where living allowances and fringe benefits were paid to AmeriCorps
     members who participated in prohibited activities or whose member files did not include
     appropriate eligibility documentation. The problems with eligibility were due to a combination
     of poor filing and poor documentation. Prohibited activities identified at Iniciativa were due to
     the subgrantee not knowing the constraints of the AmeriCorps provisions. More important,
     however, was the fact it appeared that the Corporation had approved this type of activity in its
     awarding of the competitive grant because the activities had been identified in Iniciativa’s
     proposal. Questioned costs by subgrantee were as follows:

                                                       Federal                       Education
    Subgrantee                  Grant                   Share      Grant Match        Award          Note


CSJ                    00ASFPR0400101              $        -       $       -        $1,720              (A)
Iniciativa             03ACHPR0010002                  14,343           2,531         4,724              (B)
Iniciativa             03ACHPR0010002                       -               -         8,121              (C)
Cantera                00ASFPR0400901                                       -         3,969              (D)
Interamericana         00AFPR0401601                     265               46             -              (E)

      Total                                        $14,608           $2,577         $18,534

     Centro de Servicios a la Juventud

      (A) We found one member from our sample of 40 who exited the program early and received a
          partial Education award. The reason stated for leaving the program, however, did not meet




                                                    36
      the compelling circumstance standards established in the AmeriCorps provisions because
      he exited due to discontent with the program. (Also see Exhibit B, Note 6.)

Iniciativa Communitaria de Investigacion, Inc.

(B) We found three of the nine Iniciativa members engaged solely in fund raising activities for
    the organization. The activities were identified within the Iniciativa grant application and
    ultimately approved by the Corporation. These activities, however, do not constitute
    allowable activities and as such, we have questioned these costs associated with the
    members. (Also see Exhibit D, Notes 3 and 6.)

(C) We found two member files out of the five members tested that did not contain supporting
    documentation for their decisions to exit the program early. These members received
    Education Awards totaling $8,121. As such, we have questioned the costs associated with
    these members’ awards. (Also see Exhibit D, Note 7.)

Peninsula de Cantera

(D) We found one member file out of 21 files reviewed that did not contain supporting
    documentation for exiting the program early. As a result, we have questioned the partial
    Education Award of $3,969 for this member. (Also see Exhibit E, Note 7.)

Universidad Interamericana

(E) We found one member from our sample of 25 who had been paid a living allowance
    without serving hours for an entire month. This payment is not considered allowable
    because no services were provided. As such, we have questioned the costs associated with
    the payment of the living allowance. (Also see Exhibit F, Note 6.)

(A, C & D) The AmeriCorps Special Provision 9, Release from Participation (2003) sets out
those compelling personal circumstances that permit a participant to leave a program early and
receive a partial education award from a grantee. The provision states that compelling personal
circumstances “do not include leaving a program . . . because of dissatisfaction with the
program.”

(B) The AmeriCorps Special Provision 5.a Fund Raising, Members (2003) states:

       A member’s service activities may not include organized fund raising, including
       financial campaigns, endowment drives, solicitation of gifts and bequests, and
       similar activities designed for the sole purpose of raising capital or obtaining
       contributions for the organization.

(E)    The AmeriCorps Special Provision 11.b. Living Allowances, In-Service Benefits,
       and Taxes, Living Allowance Distribution (2003) states that “[t]he living
       allowance is designed to help members meet the necessary living allowance
       incurred while participating in the AmeriCorps program.



                                                 37
The member did not qualify for the living allowance as she did not participate in the program
during the month in question.

Corporation funds have been used to pay for living allowances and Education Awards that were
not allocable to the AmeriCorps program. This finding is also considered to be an internal
control weakness.

Recommendation

We recommend that:

   1. Subgrantees review the AmeriCorps provisions to familiarize themselves with
      requirements for Education Awards;

   2. Subgrantees implement procedures to ensure that proper documentation is maintained
      within member files;

   3. The Corporation determine why Iniciativa’s application was approved, despite the fact
      that it included prohibited activities; and

   4. The Corporation determine the allowability of the costs questioned and recover costs that
      are not allowable or allocable to the grant, including administrative costs applied to the
      questioned costs.

   5. The Corporation provide training to the subgrantees on the allowability of costs and the
      documentation required to support claimed costs.


Subgrantees’ Response

Centro de Servicios a la Juventud

(A) The subgrantee stated that the member whose partial education award was questioned was
    separated from the program due to emotional, physical and mental instability and that the
    member died on July 2, 2005.

Iniciativa Communitaria de Investigacion, Inc.

(B) The subgrantee disagreed with the finding, stating that member activities responded to the
    objectives of increasing sustainability to meet community needs and developing capacity
    building. In addition, members were designated to assist in self-financing projects, as
    stated in the original proposal to the Corporation. Lastly, the subgrantee cited that two
    monitoring visits from the Puerto Rico Department of Education did not question member
    activity as being non-compliant.




                                                 38
(C) The subgrantee disagreed with the finding because the members did not have ample time to
    complete their minimum hour requirements. The program began in March 2004, but
    members did not begin serving until May 2004. The contract between Iniciativa and the
    Puerto Rico Department of Education expired at the close of February 2005. The
    subgrantee stated this ten-month period did not allow the members sufficient time to
    complete 1700 hours of service and acknowledged that this was not disclosed in the
    member files.

Peninsula de Cantera

(D) The subgrantee stated that the member received a partial education award because he was
    unable to complete the required 1,700 hours for a full award because of absenteeism due to
    personal reasons. The subgrantee also stated that the Commission had approved this
    education award.

Universidad Interamericana

(E) The subgrantee cited that it had been instructed by the Corporation’s OIG and the local
    office to pay members full amounts regardless of time served by members. As a result of
    this instruction, members were paid in full regardless of hours served.

Auditor’s Comment

(A) The documentation supporting a partial education award did not indicate that the member
    was emotionally, physically and mentally unstable. Rather, documentation available to us
    during fieldwork indicated that the compelling circumstance enabling the member to
    receive a partial education award was the member’s discontent with the program. The
    member’s death on July 2, 2005, does not affect the finding since the member exited the
    program in March 2002.

(B) We are aware of the structure of the organization and the role the members played within
    the organization. As stated in the finding, these activities, however, do not meet the criteria
    of allowable activities as defined by the provisions. Our recommendation specific to this
    finding is to determine why the Corporation originally allowed the activities to be
    permitted and to determine whether these activities should be allowed, given that they were
    stated before the fact in the proposal. The finding remains as stated.

(C) As disclosed in the response, the subgrantee did not get its members’ service started until
    two months after the program began. The use of partial education awards is not a tool
    designed for programs experiencing difficulty in getting members started. Rather it is used
    for members who have compelling circumstances to exit the program early on a case-by-
    case basis. The finding remains as stated.

(D) The response given does not meet the criteria established for partial education awards. As
    such, the finding remains as stated.




                                                39
  (E) The member payment in question occurred in September 2004, prior to the OIG visit.
      Member living allowances are to be paid only if hours have been served. As such, the
      finding remains as stated.

  Finding No. 4: – Member Time Sheet Exceptions

  We noted several instances of time sheet exceptions where the member’s time sheets were
  lacking appropriate signatures or were missing entirely. As a result, we questioned the living
  allowances, the grant match costs and the Education Awards associated with these time sheets.
  These errors were due to subgrantees failing to strictly enforce requirements for member time
  sheet preparation. The table below provides detailed information on our results.


                                              Missing                 Grant
                    Members      Missing       Time        Federal    Match      Education         Reference
 Subgrantee         Sampled     Signatures    Sheets        Share     Costs       Award

Cantera                 215          12         0          $40,731    $7,187      $45,436      Exhibit E, Note 3
Interamericana          25            1         14           8,299     1,461          145      Exhibit F, Note 3

      Total                                                $49,030    $8,648      $45,581

  AmeriCorps General Provision 22.c.ii. Financial Management Provisions, Time and Attendance
  Records, AmeriCorps Members (2003) states:

              The Grantee must keep time and attendance records on all AmeriCorps members
              in order to document their eligibility for in-service and post-service benefits.
              Time and attendance records must be signed both by the member and by an
              individual with oversight responsibilities for the member.

  Corporation funds have been used to pay for member living allowances and applicable Education
  Awards that may not have been earned by members through their service.
  This finding is also considered to be an internal control weakness.




  5
   Our original sample was expanded to include the entire months of October 2002 and December 2003 because we
  observed that no members had signed time sheets for these periods.


                                                      40
Recommendation

We recommend that:

    1. Peninsula de Cantera and Universidad Interamericana implement procedures to pay
       member living allowances only after all time sheets have been signed by the member and
       his/her immediate supervisor; and

    2. The Corporation determine the allowability of the costs questioned and recover costs that
       are not allowable or allocable to the grant.

    3. The Corporation provide training to the subgrantees on the allowability of costs and the
       documentation required to support claimed costs.


Subgrantees’ Response

Peninsula de Cantera

The subgrantee acknowledged that the time sheet exceptions existed and were due to an
oversight.

Universidad Interamericana

The subgrantee stated that the program was new and experienced difficulties in reconciling
incompatibilities between AmeriCorps requirements and the University’s established procedures.

Auditor’s Comment

The finding remains as stated.




                                              41
Finding No. 5: – Questioned Other Direct Costs

We noted several instances where other direct costs claimed were questioned because they did
not comply with the cost principles discussed below. Staff from the Commission and the various
subgrantees said they did not have a working knowledge of these cost principles. We have
questioned $38,333 of other direct costs as follows:




                            Subgrantee                 Amount        Note

                  CSJ                                   $28,200       (A)
                  Familia                                 1,436       (B)
                  Cantera                                 6,478       (C)
                  Interamericana                          2,219       (D)

                        Total                           $38,333

 (A) Centro de Servicios a la Juventud (CSJ)

       Questioned costs of $28,200 included three conditions:

          1. CSJ’s monthly spreadsheets to the Commission totaled $831,640 inclusive of
             grant match. The general ledger, however, indicated only $807,281 of costs. The
             questioned difference between the spreadsheets and the general ledger was
             $24,359.

              CSJ did not segregate costs within its accounting system between grant costs and
              grant match costs. Because the costs were commingled, we were unable to
              determine whether the variance applied to costs paid by the grant, grant match
              costs or a combination of both. Therefore, we questioned $24,359 as if the
              variance was solely for costs paid by the grant. (Also see Exhibit B, Note 3.)

              CSJ revised costs in the general ledger and submitted this information to the
              auditors on July 22, 2005. The revised general ledger increased costs by $82,133.
              However, we could not determine if the added costs were paid by the grant or
              whether they applied to grant match. Various supporting documents were also
              submitted. However, there was no audit trail between the revised general ledger
              and the supporting documents provided. As a result, we were unable to determine
              the validity of the reconstructed general ledger. We therefore conclude that a
              variance exists and have questioned costs accordingly.

          2. CSJ claimed costs of $1,994 to the AmeriCorps program for fuel purchased at a
             local gas station from March through June 2001. The purchases were made by



                                               42
   AmeriCorps members, CSJ staff and non-AmeriCorps personnel. During this
   time period, member living allowances were not being paid on a timely basis due
   to difficulties in funding flows from the Commission and the Puerto Rico
   Department of Education. As a result, CSJ authorized members to obtain fuel so
   they could have transportation to the program site. We have questioned the
   following fuel purchases:

                                                        CSJ Non-
                                                       AmeriCorps
                  AmeriCorps       CSJ AmeriCorps         Admin
                   Member            Admin Staff        Staff(Note       Total
                   (Note i)            (Note ii)            iii)       (Note iv)

    Invoice #1       $450                $407              $ 90         $ 947
    Invoice #2        489                 332               226          1,047

      Total          $939                $739              $316         $1,994



   Notes

       i. AmeriCorps member living allowances are designed to help members
          meet their necessary living expenses while participating in the program.
          We consider the cost of fuel for members’ vehicles to be a necessary
          living expense. As such, these gas purchases appear to create a
          duplication of costs claimed to the Corporation.

      ii. Documentation for CSJ administrative staff purchases of fuel did not
          include justification for the purchase. We could not determine whether the
          charges were allocable to AmeriCorps.

      iii. Documentation for purchases by non-AmeriCorps personnel was not
           allocable to the grant.

      iv. Fuel costs were not included in the original award budget.

   (Also see Exhibit B, Note 4.)

3. We identified a variance between costs requested by CSJ and the amount paid by
   the Commission through the Puerto Rico Department of Education as shown
   below.




                                   43
                                           Federal                                  Over
                                            Share                                  (Under)
           Program Year                   Requested            Received              paid

              2000-01                      $216,673            $219,838              $3,165
              2001-02                       235,302             233,999             (1,303)
              2002-03                       227,170             227,155                (15)

               Total                       $679,145            $680,992              $1,847

            This variance should be analyzed with costs claimed, thus reducing the amount of
            costs claimed to the Corporation. As such, we have included $1,847 as being
            questioned costs. (Also see Exhibit B, Note 5.)

            CSJ sent us additional information, after the completion of fieldwork, on July 22,
            2005. Included were schedules indicating that the overpayment had actually been
            greater than we had originally calculated. CSJ contended that the variance had
            been offset partially by funds being returned, leaving a remaining balance due to
            the Department of Education of only $1,131. The basis of CSJ’s overpaid balance
            due was the reconstructed general ledger, which we could not verify, and
            reimbursement checks to the Department of Education, which were not provided.
            As a result, our original calculation of the overpaid amount of $1,847 remains
            unchanged.


(B) Centro de Ensenanza Para la Familia

     We noted that a voided check was erroneously claimed to the grant and had never been
     corrected. As such, we have questioned costs of $1,436. (Also see Exhibit C, Note 4.)

(C) Peninsula de Cantera

     We noted that petty cash advances throughout the grant years were provided to the
     AmeriCorps project director. Our review of the documentation revealed that the
     advances were used to purchase snacks, ice, water, and miscellaneous groceries. The
     documentation did not disclose justification for the charges, but Cantera officials
     indicated that these costs were incurred to provide snacks and lunches for the
     AmeriCorps members while they were working on their respective construction sites.
     These petty cash transactions claimed totaled $6,478. We questioned the costs because
     they did not include a justification on each receipt and the costs and items were not
     provided for in the award budget. (Also see Exhibit E, Note 5.)




                                            44
 (D) Universidad Interamericana

        Interamericana claimed costs under the Administrative Cost category both to the
        Corporation and to grant match. This approach is acceptable per the provisions as long as
        the portion claimed to the grant match does not exceed 10 percent. We noted, however,
        that Interamericana used its approved indirect rate of 36 percent to calculate
        Administrative Costs claimed to grant match. The use of a rate in excess of 10 percent
        thus excludes Interamericana from also claiming costs to the Corporation. As such, we
        have questioned $2,219. (Also see Exhibit F, Note 5.)

(A.1, A.3 & B) AmeriCorps General Provision C.21.b. Financial Management Provisions,
       Source Documentation (2003), states:

        The Grantee must maintain adequate supporting documents for its expenditures
        (federal and non-federal) and in-kind contributions made under this Grant. Costs
        must be shown in books or records [e.g., a disbursement ledger or journal], and
        must be supported by a source document, such as a receipt, travel voucher,
        invoice, bill, in-kind voucher, or similar document.

(A.2)   AmeriCorps Special Provision 11.b. Living Allowances, In-Service Benefits, and Taxes
        states that “[t]he living allowance is designed to help members meet the necessary living
        expenses incurred while participating in the AmeriCorps Program.”Those costs whose
        justification was not documented and whose allocability could not be determined, OMB
        Circular A-122, Attachment A, Section A(2) states that “[t]o be allowable under Federal
        awards, costs must . . . [b]e adequately documented.”


         OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments
        Attachment A, Section C.1 Basic Guidelines, Factors Affecting Allowability of Costs,
        states that “[t]o be allowable under Federal awards, costs must . . . [b]e adequately
        documented.”

(D) The AmeriCorps Special Provision 22.c. Administrative Costs, Fixed 5 %, (2003) states:

        If approved on a case-by-case basis by the Corporation, the grantee may charge,
        for administrative costs, a fixed 5 percent of the total of the Corporation funds
        expended. In order to charge this fixed 5 percent, the grantee match for
        administrative costs may not exceed 10 percent of all direct cost
        expenditures. (Emphasis added.)

The effect of this condition is that unallowable costs of $13,984 (38,333 less 24,359) have been
claimed. The remaining $24,359 of these costs pertains to reconciliation variances we identified
at CSJ. At this point, we cannot determine whether the variances relate to Federal share or to
Match. These costs may or may not have been claimed to the grant.




                                               45
This finding is also considered to be an internal control weakness.

Recommendation

We recommend that:

   1. CSJ reconcile the variance between its general ledger and the reimbursement requests
      identified in A.1;

   2. CSJ fully utilize its Peachtree accounting application to segregate costs claimed to the
      grant from costs claimed to grant match;

   3. CSJ reimburse the Corporation for the amount overpaid, including interest;

   4. The subgrantees implement policies to require documentation justifying the allowability
      and allocability of claimed costs;

   5. Interamericana comply with the AmeriCorps provisions as they pertain to the
      administrative cost category;

   6. The Corporation determine the allowability of the costs questioned and recover costs that
      are not allowable or allocable to the grant; and

   7. The Corporation should provide training to the subgrantees on the allowability of costs
      and the documentation required to support claimed costs.


Subgrantees’ Response

(A) Centro de Servicios a la Juventud (CSJ)

   1. The subgrantee responded to costs questioned based on reconciling variances by
      reconstructing its general ledger and cited the report sent to us on July 21, 2005. The
      subgrantee believed the reconstruction resolved the finding.
   2. The subgrantee did not specifically address the questioned fuel costs in its response.
   3. The subgrantee did not agree it had been reimbursed $1,847 in excess by the
      Commission. The response indicated that it had been reimbursed $1,131 in excess by the
      Commission. The basis of this was the reconstructed general ledger and reimbursement
      check numbers 2627 and 2005, which reimbursed the Commission for the overpayments.

(B) Centro de Ensenanza Para la Familia

     The subgrantee stated that it credited the grant, in its records, after the exception was
     brought to its attention by the audit team.




                                                46
(C)    Peninsula de Cantera

       The subgrantee stated that the costs were included in the award budget due to the nature of
       the program, but agreed that, in the future, it would provide more detailed budgets
       outlining specific costs.

(D) Universidad Interamericana

       The subgrantee reiterated its method of computing administrative costs claimed to the
       Corporation.

Auditor’s Comment

(A)

      1. The schedules sent to us on July 21, 2005, were sent with various supporting documents.
         However, there was no audit trail between the reconstructed general ledger and the
         supporting documentation. As a result, we were unable to validate the additional costs
         per the newly constructed general ledger and thus believe the finding should remain as
         stated.
      2. The subgrantee did not specifically respond to the questioned fuel costs. The finding
         remains as stated.
      3. The basis of CSJ reducing questioned costs from $1,847 to $1,131 was the reconstructed
         general ledger and check numbers 2627 and 2005, which reimbursed the Commission for
         overpayments. As discussed above, we were unable to verify the reconstructed general
         ledger. In addition, the reimbursement checks cited in the subgrantee response were a
         part of our analysis during fieldwork. Since the revised general ledger was not verifiable
         and the checks had already been considered in our analysis, this finding remains as
         stated.

(B)     We agree with the treatment of the void check within the subgrantee’s records, but
        recommend the Corporation determine whether the credit was also applied to claims
        against the grant.

(C)     We agree that future budgets should provide more detailed cost information. However,
        we still believe that a justification is required on each receipt and the Corporation should
        further review the costs questioned. As such, the finding remains as stated.

(D)     The computation of claiming administrative costs to the Corporation was not questioned
        in the finding. Rather, we questioned the allowability of claiming administrative costs to
        the Corporation because it claimed costs to Administrative grant match in excess of 10
        percent. As stated in the finding, this methodology of claiming administrative grant
        match precludes the subgrantee from claiming any administrative costs directly to the
        Corporation. As such, the finding remains as stated.




                                                47
Finding No. 6: – Late Submissions

We noted numerous instances where the subgrantees were not submitting required AmeriCorps
documents within the established time frames. Specifically, we noted late submissions of
Financial Status Reports (FSR), Progress Reports, Member Enrollment Forms, Member Status
Change Forms, and Member Exit Forms. Each subgrantee has indicated the late submissions
were due to technical difficulties with using WBRS. The following summarizes the instances of
late submissions noted during the audit.

                                                                                               Late
                               Total     Member                Late        Late       Late   Change
                              Members      Files      Late   Progress   Enrollment    Exit   of Status
        Subgrantee            Enrolled   Reviewed     FSRs   Reports      Forms      Forms    Forms

Centro de Intervencione          14         7          -        1           7          6         -
 e Integracion Paso a Paso
Centro de Servicios a la         81         40         12      15          24         13        2
 Juventud
Centro de Ensenanza para la      94         40         -        -          11         16         -
 Familia
Iniciativa Communitaria de       9          5          1        2           5          4        1
 Investigacion
Peninsula de Cantera             42         21         3        2          15          -         -
Universidad Interamericana       50         25         2        5          16         15         -

In addition, we noted member status errors at Centro de Intervencione e Integracion Paso a Paso
because two members shown as exiting the program were in fact still active.

AmeriCorps Special Provision B.16.a. Financial Status and Progress Reports, establishes due
dates for quarterly reporting and states that grantees must submit FSRs and progress reports by
these dates. Subsection B.16.b., AmeriCorps Member Related Forms, specifies the forms that
grantees must submit to the Corporation to track AmeriCorps member status and hours.

By not submitting the required documents within established time frames, the Corporation and
Commission cannot properly review, track, and monitor the subgrantees’ activities and
objectives of the AmeriCorps program. In addition, without current member and financial
information, the Corporation may be unable to make timely and effective management decisions.
Recommendation

We recommend that:

    1. Subgrantees review their reporting requirements and implement controls to ensure that
       future compliance is achieved;

    2. The Corporation provide technical assistance to the subgrantees to address any WBRS
       problems that still persist.




                                                 48
Subgrantees’ Response


All subgrantees communicated that they had experienced substantial difficulty in using WBRS,
which precluded them from meeting established deadlines.

Auditor’s Comment

We concur with the difficulties cited in the subgrantee responses and witnessed these difficulties
during fieldwork.


Finding No. 7: – Member Files Lacking Documentation to Support Proper Enrollment and
Participation in AmeriCorps

We noted numerous instances where AmeriCorps member files lacked proper documentation to
support either enrollment or participation. These instances were due to poor recordkeeping and a
general lack of understanding as to the grant requirements. At Universidad Interamericana, the
lack of member contracts was the result of the University’s position that members were not
employees and, as such, contracts should not be established for them. Specifically, we noted the
following exceptions:

Centro de Intervencione e Integracion Paso a Paso

Mid-term evaluations were not performed.

One of seven member files sampled lacked certification that the participant had obtained a high
school diploma or an agreement to obtain a high school diploma or equivalency as required by
AmeriCorps Special ProvisionB.14.b Member Records and Confidentiality, Verification (2003).

Centro de Ensenanza Para La Familia, Inc.

From our sample of 40 member files on Grant No. 00ASFPR0401401, we noted the following
exceptions:

        Number of
        Exceptions                     Type of Exception
            3           Files did not include signed contracts
            2           Files did not include time sheets
            6           Files did not include evidence of a criminal
                        background check
             3          Files did not include proof of U.S. citizenship
                        or permanent resident status
             2          Files did not include high school diploma
                        certification or equivalency certificate
             1          Member file was never established


                                                49
The exceptions above were for members who left the program immediately after enrollment. As
a result, there were no living allowances paid and therefore no questioned costs.

In addition, we noted one member file that lacked a year-end evaluation and one member file
that did not contain parental consent (required for minors) for serving.


Iniciativa Communitaria de Investigacion, Inc.

We determined that mid-term evaluations were not conducted.


Universidad Interamericana

We determined that the University had not established contracts with any of the members for
Grant No. 00AFPR0401601. We also determined that mid-term and end-of-term evaluations had
been conducted.

We found one member from our sample of 25 whose file lacked a background check. The
member in question interacted with children. As a result, we have questioned the living
allowances paid to the member, as well as the Education Award, as shown below. (Also see
Exhibit F, Note 4.)

                          Federal                         Education
                           Share            Grant Match    Award


                            2,387                421          480


AmeriCorps Special Provision B.7.b. Training, Supervision, and Support, Member Contracts
(2003), states:

       The Grantee must require that members sign contracts that, at a minimum,
       stipulate the following:

              i. The minimum number of service hours and other requirements
              (as developed by the Program) necessary to successfully complete
              the term of service and to be eligible for the Education Award;

              ii. Acceptable conduct;

              iii. Prohibited activities;

              iv. Requirements under the Drug-Free Workplace Act;



                                                 50
               v. Suspensions and termination rules;

               vi. The specific circumstances under which a member may be
               released for cause;

               vii. The position description;

               viii. Grievance procedures; and

               ix. Other requirements as established by the Program.

       g. Performance Reviews. The Grantee must conduct and keep a record of at least
       a mid-term and end-of-term written evaluation of each member’s performance.

AmeriCorps Special Provision 6.h Eligibility, Recruitment, and Selection, Criminal Record
Checks (2003) states:

        Programs with members or employees who have substantial direct contact with
        children or who perform service in the homes of children or individuals
        considered vulnerable by the program, shall, to the extent permitted by state and
        local law, conduct criminal record checks on these members or employees as part
        of the screening process.

The effect of this condition is that:

    1. Failure to maintain the appropriate documentation limits the subgrantees’ ability to
       ensure that AmeriCorps members are eligible to serve or receive benefits.

    2. The lack of documentation may lead to the Corporation funding living allowances and
       Education Awards for ineligible individuals not eligible to participate in the AmeriCorps
       program.

    3. Failure to establish contracts with members could leave the subgrantee susceptible to
       litigation should conflicts arise.

    4. Failure to evaluate members as the program progresses and as the members terminate,
       may preclude members from functioning at their highest capacity.

    5. Failure to perform background checks could result in children and other vulnerable
       persons being placed in harm’s way.




                                                 51
Recommendation

We recommend that:

   1. Subgrantees comply with the grant requirements as they pertain to member enrollment
      and participation documentation;

   2.    Universidad Interamericana, Iniciativa Communitaria de Investigacion, Inc., Centro de
        Intervencione e Integracion Paso a Paso and Centro de Ensenanza Para La Familia, Inc.
        implement procedures to perform mid-term and end-of-term evaluations;

   3. Centro de Ensenanza Para La Familia, Inc. obtain criminal background checks when
      warranted;

   4. Centro de Ensenanza Para La Familia, Inc. enroll members only after all appropriate
      documentation has been received and filed; and

   5. Universidad Interamericana determine if a background check was completed on the
      member in question and submit this information to the Corporation.


Subgrantees’ Response

Universidad Interamericana
The subgrantee stated that member contracts were initially prepared, but later determined to be
disallowed under the University policies. A substitute internal agreement was prepared and
signed by members during the audit visit. The subgrantee also stated that some members
requested their background check for use on employment after their term had ended, but stated
that all members had been requested to submit one prior to beginning service.

The other subgrantees did not respond to this finding.

Auditor’s Comment

Universidad Interamericana
The missing contracts pertained to members whose service hours were from the previous grant
and had already left the program. As such, we question whether these members ever signed an
internal agreement and contend that the University was still at risk while the program existed
because legally enforceable contracts did not exist at the time the members served. Lastly, we
believe that eligibility documentation should be retained in the member files as evidence the
member met all requirements. The finding remains as stated.




                                               52
Finding No. 8: – Member Hours Incorrectly Reported within WBRS

We found instances in which member hours were inaccurately reported to WBRS as described
below. Subgrantees indicated that the technical difficulties they experienced with WBRS
precluded them from always entering member activity data.

Centro de Intervencione e Integracion Paso a Paso

All member hours were entered in WBRS under the “Training” category, rather than a
combination of “Service” and “Training.”

Peninsula de Cantera

There were seven members whose hours within WBRS were overstated by 175 hours when
compared to time sheets as of March 31, 2005.

Universidad Interamericana

There were eight members whose hours in WBRS were understated by 145 hours on Grant No.
00AFPR0401601 grant. There were 10 members whose hours in WBRS were understated by
1,856 hours on Grant No. 03AFHPR0010003.

AmeriCorps Special Provision B.7.e. Training, Supervision, and Support, Limit on Education
and Training Activities (2003) states that “[n]o more than 20 percent of the aggregate of all
AmeriCorps member service hours in a Program may be spent in education, training, or other
non-direct activities.”

AmeriCorps General Provision C.21.c. Time and Attendance Records, AmeriCorps Members
(2003) require that grantees keep time-and-attendance records on all AmeriCorps members to
document their eligibility for in-service and post-service benefits.

The effect of this condition is that monitoring hours to determine whether the members will meet
their commitment or comply with the training level provision cannot be accomplished if data
within WBRS is not accurate or properly updated. In addition, the Corporation uses time-and-
attendance information in WBRS to track member status, and this data is the basis for
appropriate Education Awards.




                                              53
Recommendation

We recommend that:

   1. The three subgrantees mentioned above update member hour information in WBRS as
      soon as possible; and

   2. The three subgrantees implement procedures to enter data in WBRS as soon as member
      time sheets have been properly completed.

Subgrantees’ Response

The subgrantees did not respond to this finding.

Auditor’s Comment

The finding remains as stated.


Finding No. 9: – Living Allowance Distribution

We determined that living allowances were not paid incrementally as prescribed by the
AmeriCorps Special ProvisionB.11.b. Living Allowances, Other In-Service Benefits and Taxes
Provisions, Living Allowance Distribution (2003), that states that “[p]rograms must not pay a
living allowance on an hourly basis. . . . Programs should pay a living allowance in increments,
such as weekly or bi-weekly.”

Subgrantee payments to members were not timely due to the Commission’s slowness in issuing
payments through the Puerto Rico Department of Education. We noted this exception at the
following subgrantees:

       •   Centro de Intervencione e Integracion Paso a Paso;

       •   Centro de Servicios a la Juventud;

       •   Centro de Ensenanza Para La Familia, Inc.; and

       •   Universidad Interamericana.

In addition, we noted that members serving on the Centro de Ensenanza Para La Familia first
Grant No., 00ASFPR0401001 had been paid on an hourly basis.

Member dissatisfaction and high turnover rates occurred as a result of the untimely payments.
Also, the overall success of the programs was negatively impacted.



                                                54
Recommendation

The Corporation has begun to address this problem by initiating a system where the subgrantees
can drawdown grant funds directly from the Department of Health and Human Services Payment
Management System. We recommend that the Corporation implement and monitor this practice
for all subgrantees in Puerto Rico.

Subgrantees’ Response

The subgrantees did not respond to this finding.


Auditor’s Comment

The finding remains as stated.


Finding No. 10: – Full-Time Member Living Allowances

Full-time members at Centro de Servicios a la Juventud (CSJ) were paid living allowances
totaling $8,500, as stated in their contracts for Program Years 2002 and 2003. CSJ stated that the
Commission had instructed them to use these amounts when establishing member contracts.
These amounts, however, do not meet the minimum allowance amounts.

AmeriCorps Special Provision B.11.a.i. Living Allowances, Other In-Service Benefits And Taxes,
Living Allowances, Full-Time Requirements, (2003) incorporates by reference the applicable
year’s Grant Application Guidelines for that year’s amount for an AmeriCorps’ member’s living
allowance. The amounts for Program Years 2002 and 2003 are $9,300 and $9,600, respectively.

The effect of this condition is that the AmeriCorps members have not been paid the minimum
amounts available to them.




                                               55
Recommendation

We recommend that:

   1. The Corporation determine whether retroactive payments should be made to the
      members; and

   2. CSJ use the application guidelines when writing future contracts for members.

Subgrantee’s Response

The subgrantee did not respond to this finding.


Auditor’s Comment

The finding remains as stated.




                                                  56
Internal Control Findings

Finding No. 11: – Financial Management Systems

We identified internal control weaknesses in certain subgrantee accounting systems as described
below. The weaknesses were due to the subgrantees’ limited resources as well as their lack of
knowledge of grant requirements.

Centro de Ensenanza Para la Familia & Centro de Intervencione e Integracion Paso a Paso
The subgrantees are capturing their cost data within Excel spreadsheets. The spreadsheets,
however, have not been designed to track costs by budget category. Comparison of costs to
budget is not performed until the monthly requests are prepared and submitted to the
Commission for reimbursement.

In addition, we noted that Centro de Intervencione e Integracion Paso a Paso lacks an established
set of accounting policies.

Centro de Servicios a la Juventud & Iniciativa Communitaria de Investigacion
The subgrantees use accounting software packages, but do not utilize the budgetary module
within the application to track expenditures by budget category.

In addition, Centro de Servicios a la Juventud has not segregated its costs between grant costs
and grant match costs, as discussed earlier under compliance finding No. 5.

Peninsula de Cantera
Petty cash advances granted to employees are not compared and adjusted to payments recorded
in the accounting system. There is no internal control in place to ensure that the actual
disbursements from the advance were properly reflected in the general ledger.

AmeriCorps General Provision C.21.a. Financial Management Provisions, General (2003)
states:

       The Grantee must maintain financial management systems that include standard
       accounting practices, sufficient internal controls, a clear audit trail and written cost
       allocation procedures as necessary. Financial management systems must be
       capable of distinguishing expenditures attributable to this Grant from expenditures
       not attributable to this Grant. This system must be able to identify costs by
       programmatic year and by budget category and to differentiate between direct and
       indirect costs or administrative costs.

Weak internal controls could lead to errors going undetected, cost overruns or possible misuse or
misappropriation of funds.




                                                 57
Recommendation

We recommend that:

     1. Centro de Ensenanza Para la Familia & Centro de Intervencione e Integracion Paso a
        Paso consider purchasing a software application package that can accommodate the
        requirements of the provisions or modify their Excel spreadsheets to meet the
        requirements;

     2. Centro de Servicios a la Juventud & Iniciativa Communitaria de Investigacion utilize
        their accounting software to its fullest extent to ensure that costs are incurred within
        budget and that compliance with all provisions is achieved;

     3. Subgrantees develop formal accounting policies that guide the accountant and/or
        personnel within their accounting department; and

     4. Cantera implement controls to ensure that funds used for petty cash advances are
        properly accounted within the general ledger and reported accurately to the Corporation.


Subgrantees’ Response


Peninsula de Cantera

The subgrantee expected to complete its accounting and policies and procedures by December
2005. It also has discontinued its use of the petty cash fund for AmeriCorps activity.

There was no response in regard to this finding from the other subgrantees.

Auditor’s Comment

We agree with the corrective action taken by Peninsula de Cantera.


Finding No. 12: – Segregation of Duties

We identified areas within the accounting functions of two subgrantees that were not properly
segregated as discussed below.

Centro de Ensenanza Para la Familia
The Accountant at Centro de Ensenanza Para la Familia is responsible for the following duties:




                                               58
               Receipts
               • Receives cash receipts;
               • Prepares deposits;
               • Takes deposits to the bank; and
               • Prepares bank reconciliations.

               Non-Payroll Disbursements
               • Prepares disbursements;
               • Has access to blank checks;
               • Has access to checks after being printed; and
               • Has access to checks after being signed.

               Payroll Disbursements
               • Prepares payroll disbursements;
               • Records payroll transactions in the general ledger;
               • Has the ability to change salary amounts; and
               • Has access to signed payroll checks.

               Audit – The accountant also performs the annual independent audit of the
               financial statements as required by United Way Foundation, a major funding
               source for Centro de Ensenanza Para la Familia.

These weaknesses were the result of the subgrantees’ lack of size and its limited resources.

Peninsula de Cantera
The Accounting Director at Peninsula de Cantera is responsible for the following duties:

               Receipts
               • Receives cash receipts;
               • Prepares deposits; and
               • Prepares bank reconciliations.

               Non-Payroll Disbursements
               • Prepares disbursements;
               • Has access to blank checks;
               • Has access to checks after being printed; and
               • Has access to checks after being signed.

               Payroll Disbursements
               • Prepares payroll disbursements;
               • Records payroll transactions in the general ledger;
               • Has the ability to change salary amounts; and
               • Has access to signed payroll checks.



                                                59
Officials at Peninsula de Cantera had not previously considered segregating specific functions
performed by the Accounting Director.

AmeriCorps General Provision C.21.a. Financial Management Provisions, General (2003)
states:

       The Grantee must maintain financial management systems that include standard
       accounting practices, sufficient internal controls, a clear audit trail and written cost
       allocation procedures as necessary.

Duties which are clearly segregated within the accounting function are standard practices
designed to safeguard assets and strengthen internal controls. Entities whose accounting
functions are not properly segregated are at risk because inappropriate activities can take place,
unnoticed and undetected. The lack of properly segregated duties described above does not
represent standard accounting practices. The subgrantees, therefore, have not complied with the
provision stated above.

Recommendation

We recommend the Peninsula de Cantera and Centro de Ensenanza Para la Familia assign
functions within their accounting departments to various personnel to achieve a proper
segregation of duties. For roles that cannot be re-assigned, we recommend a mitigating control
be established to offset the apparent weakness.

Subgrantees’ Response


Peninsula de Cantera

The subgrantee has included, in its Fiscal Year 2006 budget, the costs for an accounting
administrative assistant that will enable segregation between accounting functions.

There was no response in regard to this finding from the other subgrantee.

Auditor’s Comment

We agree with the corrective action taken by Peninsula de Cantera.




                                                 60
